No.

3n llje
Supreme (£mjrl of ifye {Uniteh states

Paul A. Heinrich,
Petitioner,
v.
United States of America,
Respondent.

Proof of Service by Mail
Petitioner certifies, under penalty of perjury under the laws of the United States of
America, that on September 28, 2020, he placed 3 copies of his Petition for Certiorari in the US
mail, posted pre-paid, and addressed to:
Representing the United States of America:
The Solicitor General of the United States of America
Department of Justice, Room 5616
950 Pennsylvania Ave., NW
Washington, D.C. 20530-0001
.

and 3 courtesy copies addressed to Trial Counsel for the United States of America:
Scott Blader, Attn: Leslie Heije
U. S. Attorney for the Western District of Wisconsin
United States Attorney’s Office
222 West Washington Avenue
S' MadisOm Wisconsin 53703

Paul A. Eternal i, pro se
P.O. Box 1094,
Star Lake, Wisconsin 54561
630 232-1116
Signed,and sworn to before me this 28th day of September, 2020.
Notary Public

KEN CAUDILL
Notary Public
State of Wisconsin

RECEIVED
OCT - 5 2020

